No. 20-1361

In the Supreme Court of the United States
Regina Berglass Heisler, individually and as the executrix
of the Succession of Frederick P. Heisler,
Petitioner,
v.
Girod LoanCo, LLC,
Respondent.

Rule 44 PETITION FOR REHEARING as to April 26 Denial of Certiorari

ON PETITION FOR WRIT OF CERTIORARI TO THE
LOUISIANA SUPREME COURT

Henry L. Klein (SCOTUS Bar 99146)
844 Baronne Street
New Orleans, LA 70113
504-439-0488
henryklein44@gmail.com

Admitted to the United States Supreme Court
Bar on September 6, 1974

Received
MAY 10 202)

QUESTIONS PRESENTED
On January 18, 2021, the United States Bankruptcy Court for the Eastern
District of Louisiana, at Docket 20-11509, lifted the Stay imposed by 11 U.S.C. § 362,
(i) allowing Girod LoanCo, LLC (“Girod”) to execute on two state actions commenced
pre-bankruptcy, (ii) not yet concluded or perfected, but (iii) being enforced post­
bankruptcy.

The January 18, 2021 Order declares that:
“... any filing by a p arty or ruling by a court in one of the civil
actions will not violate the stay imposed by 11 U.S.C. §
362(a)...”

1.

Is the January 18, 2021 Order by the bankruptcy court contrary to
Justice SOTOMAYOR’s concurring opinion in City of Chicago v.
Fulton. 592 U.S.

2.

(2021), decided January 14, 2021?

Do the actions by Girod and the January 18 Order constitute
“...intervening circumstances of a substantial or controlling effect
or to other substantial grounds not previously presented...” so as
to justify rehearing?

3.

Does the case at bar fill the gap identified by Justice
SOTOMAYOR at page 1 of the published concurring opinion in
City of Chicago v. Fultonl

l

TABLE OF CONTENTS

Questions Presented

1

Table of Authorities

in

Argument Favoring Rehearing

1

Relief Requested.....................

5

Rule 44(1) Certificate .............

6

n

TABLE OF AUTHORITIES

Cases
Chicago v. Fulton,_U.S.__ (2021) .....................................................

passim

Keyishian v. Board of Regents, 385 U.S. 589 (1968) ...........................

2

NAACP u. Button, 371 U.S. 360 (1964) ................ ...............................

2-3

Wolff v. Selective Service Local Board 16, 372 F.2d 817 (2d Cir. 1967)

2

Other Authorities
ABA FORMAL OPINION 491

2

in

ARGUMENT FAVORING REHEARING
Petitioner’s Original Petition (“CERT Petition”) could not reasonably raise
Chicago v. Fulton issues because the actions by Girod and by the bankruptcy court had
not ripened.

Clearly, Petitioner’s April 20, 2021 supplement to this High Court

addressed Justice SOTO MAYOR observations about “...acts to perfect and enforce liens
against property of the estate and acts to collect, assess, or recover a claim against the
debtor...” when seizures are commenced pre-bankruptcy but not yet perfected or
achieved when bankruptcy is filed. The following chronology establishes that the
undecided issues identified by Justice SOTOMAYOR are extant in the case at bar,
which is still in the process of “...intervening circumstances...” justifying rehearing
without re-urging issues in the CERT Petition1:
November 13. 2017: The FDIC, liquidator of First NBC Bank, sold a
multimillion dollar package of debt to Girod which included $600,000 in
Heisler debt bloated to $7.9 million, predicted by Girod to reach $15
million.
Girod filed a state-court claim to the $2.1 million
July 19. 2018:
investment account left to Petitioner
still subject to a “status quo”
order by the state court pending resolution of issues presented by the
CERT Petition and elsewhere.
June 30. 2019:
Girod obtained a writ of seizure against all estate
property, presently (but not conclusively) impacting (i) the ownership of
844 Baronne Street, set for sale to Girod in early May and (ii) the
ownership of a shopping center deeded by the Sheriff to Girod REO in
violation of 28 U.S.C. 1446(d).

1
For perspective and context, key pleadings, motions and orders are essential to take this case to
the level necessary to meet the issues Justice SOTOMAYOR identified in Chicago v. Fulton. Respectfully,
there may never be a case that “...fills the gap...” as in the case at bar.

1

August 27. 2020:
Petitioner filed a pro se Chapter 11, converted to
Chapter 7 on September 28, 2020..
October 21. 2020:

Girod filed a Proof of Claim (“POC-3") for $7,869,608.

November 20. 2020: Objection to POC-3 was filed with a request for an
evidentiary hearing2.
January 14. 2021:
(*)a

Chicago vs. Fulton was decided.

January 18. 2021: The bankruptcy court lifted the stay imposed by 11
U.S.C. § 362(a) specifically as to the foreclosure case and the concursus
(interpleader) case, Rehearing Annendix A.
March 17. 2021:

CERT Petition was filed, docketed March 26, 2021.

(*)

March 17. 2021:
The bankruptcy court entered an Order Striking
Pleadings. Doc. 256, expressing an opinion that undersigned counsel
should not file pleadings collaterally supporting Petitioner4, Rehearing

2

Notwithstanding (i) the multi-million dollar levels involved, (ii) the equitable nature of

bankruptcy, (iii) the criminality that collapsed FNBC, (iv) the violation of FDIC policy against allowing
bidders from “secrecy jurisdictions” and (v) ABA FORMAL OPINION 491, there has never been an
evidentiary hearing Petitioner has oft-beseeched the court to hold.
3

(*) indicates Appendix submissions applicable to this Petition for Rehearing.

4

The Order had a constitutional chilling effect on the right to advocate: “This Court will not

permit Klein to continue to file thinly veiled arguments on behalf of the Debtor, who he cannot legally
or ethically represent. Accordingly, and as previously stated on the record, IT IS ORDERED that Mr.
Klein shall not file pleadings or appear before this Court on behalf of the Debtor.” In the final
paragraph, the bankruptcy court warned that sanctions might follow pursuant to 11 U.S.C. § 105(a).
This Court has held that threats of sanctions are the “...most lethal enemies of the First Amendment...”,
Kevishian v. Board of Regents. 385 U.S. 589 (1968), At Wolff v. Selective Service Local Board 16, 372 F.2d
817 (1967), the 2nd Circuit Court of Appeals, citing NAACP v. Button, 371 U.S. 360 (1964), said this:

2

Appendix B.
April 8. 2021: Petitioner filed a “claw-back” case involving the Kenner
Shopping Center the Trustee declined to file, Heisler v. Kean Miller.
Girod LoanCo. Girod REO. et alia. Eastern District of Louisiana Docket
21-724.
(*)

April 16. 2021:
Petitioner and Creditor-4 (Henry L. Klein, pro se) filed
a Joint Motion for Certification Pursuant to 28 U.S.C. § 158(cl)(2)(B) to
the Fifth Circuit Court of Appeals. (Doc. 309), posing the question raised
by Justice SOTOMAYOR, Rehearing Appendix C5.
April 17. 2021: All tenants at 844 Baronne Street were evicted by order
of the bankruptcy court6.
April 20. 2021:

<*)

Trustee changed all locks at 844 Baronne Street.

April 21. 2021:
Petitioner and Creditor-4 filed a joint Objection to
Further Proceedings Without an Evidentiary Hearing as to the Validity
of POC-3. (Doc. 321), Rehearing Appendix D. hearing not set as of May 3,
2021.
April 23. 2021:
conference.

Petitioner’s CERT Petition was considered at

“Since it is the mere threat of unconstitutional sanctions which
precipitates the injury, the courts must intervene at once to vindicate the
threatened liberties. ”
5

IF A CREDITOR COMMENCES AN ACTION PRE-BANKRUPTCY BUT IS NOTIN
ACTUAL POSSESSION OF THE ASSET WHEN THE DEBTOR FILES FOR
BANKR UPTCY PROTECTION, CAN THAT CREDITOR ENGAGE IN ANY “.. .ACT TO
CREATE , PERFECT OR ENFORCE ANY LIEN AGAINST PROPERTY OF THE
ESTATE...” AND “...ANY ACT TO COLLECT, ASSESS, OR RECOVER A CLAIM
AGAINST THE DEBTOR THATAROSE PRIOR TO BANKRUPTCYPROCEEDINGS?

The Law Offices of Henry L. Klein; Julie Klein Interiors; Kavanagh & Rendiero, PLC; the Law
Offices of Theodore Fish; New Orleans Legal, Inc.; and Attorney Peter Diiorio.

6

April 26. 2021:
(*)

Denial published.

April 27, 2021:

Bankruptcy court vacated order overruling dual
objections to POC-3, but held the objection in abeyance “...pending the
United States Supreme Court’s disposition of the Petition for a Writ of
Certiorari filed by Henry Klein, (Doc. 324), Rehearing Appendix E.

Although the bankruptcy court granted minimal relief on April 27, 2021, (i) the
lift-stay order remains in effect, (ii) your pro se Petitioner has yet to have a hearing on
matter requested and (iii) the ruling contradicting Justice SOTOMAYOR’s
observations remains “...the law of the case...”

The gravamen of this Petition for

Rehearing is based on the following:
I write separately to emphasize that the Court has not
decided whether and when §362(a)’s other provisions may
require a creditor to return a debtor’s property, Those
provisions stay, among other things ‘any act to create,
perfect or enforce any hen against property of the estate’
and ‘any act to collect, assess, or recover a claim against [a]
debtor’ that arose prior to bankruptcy proceedings,
§§362(a)(4), (6).... Nor has the Court addressed how
bankruptcy courts should go about enforcing creditors’
separate obligation to ‘deliver’ estate property to the trustee
or debtor under §542(a). The City’s conduct may very well
violate one or both of these other provisions. The Court does
not decide one way or the other (Internal citations omitted).
This case fills the gap identified in Chicago v. Fulton.

The level of activity

taking place as we write is substantial and the issue sub iudice is developing at
constitutionally-unacceptable levels and speed.

4

RELIEF REQUESTED
The Justices of the United States Supreme Court are independently capable of
recognizing issues that would give Petitioner prompt succor.

We simply try to help

as best as we can. Unless this Court takes action, the assets of the debtor’s estate are
on their way to immediate liquidation before there is a ruling on the allowance or
disallowance of POC-3, followed by a trip to the Cayman Islands,
irreparable.

The damage is

844 Baronne Street is empty but for a “...law library to die for...”

abandoned in the purge7.

The Act of Sale from the Trustee to Girod will take place

soon after May 10 on a credit bid of $1.8 million with a $107,000 carve-out to the
debtor’s estate. The claim for the $2.1 million in state court with a $21,000 carve-out
to the estate is moving apace, portending a Rooker-Feldman and Article III war.

Respectfully submitted,

Henry L. Klein
844 Baronne Street
New Orleans, LA 70113
504-439-0488
henryklein44@gmail.com

7

Appendix C. Supplemental Brief Distributed.

5

RULE 44(1) CERTIFICATE
I, Henry L. Klein, certify that the Petition for a Rehearing from the April 26,
2021 Order denying certiorari is limited to intervening circumstances not available or
ripened when the Original Petition for Certiorari was filed.

i
|

The intervening

circumstances are substantial but were not capable of articulating at an earlier date.
The “...controlling...” aspect is Justice SOTOMAYOR’s concurrence on January 14,
2021. contradicted by the January 18, 2021 order that “...any filing by a party or ruling
by a court in one of the civil actions will not violate the stay imposed by 11 U.S.C.

!

362(a)...” The Petition for Rehearing does not urge matters denied by the original
Petition for Certiorari, but only provides facts necessary for perspective, and context.
/

The Petition is presented in good faith and not for delay.

i

b

Henry L. Klein, Supreme Court Bar 19946^
Respectfully submitted,

L/

/

Henry L. Klein
844 Baronne Street
New Orleans, LA 70113
504-439-0488
henryklein44@gmail.com
Admitted to the United States Supreme Court
Bar on September 6, 1974

6

!
i

Case 20-1CCSQ8

H^sOWlffittlDtageantf Page 1 of 2

UNITED STATES BANKRUPTCY COURT
EASTERN DISTRICT OF LOUISIANA
IN RE:

CASE NO.: 20-11509

REGINA BERGLASS HEISLER,

CHAPTER 7

Debtor

i
!

SECTION A

!
i

ORDER GRANTING RELIEF FROM THE AUTOMATIC STAY

!
I

The Motion to Lift Stay Pursuant to 11 U.S.C. § 362(d)(2) (P-135) (the “Motion”! filed

!
;
!

by Girod LoanCo, LLC (“Girod”) came for hearing on January 6,2020 at 1:00 p.m.
APPEARANCES:

As reflected in the record.

After considering the Motion, the Designation of Contested Matter and Request for
Expediting Responses to Admissions and Scheduling Deposition (P-141) filed by Creditor Henry
L. Klein (“Klein”), the record of this case including other documents filed by Klein, the
applicable law, and the statements of counsel at the hearing, the Court grants the relief requested
as follows:
IT IS ORDERED that the Motion is GRANTED as set forth herein;
IT IS FURTHER ORDERED that the stay imposed by 11 U.S.C. § 362(a) is hereby
lifted as to the following civil actions pending in state court (jointly, the “Civil Actions”):

i

1. Girod LoanCo, LLC v. Regina B. Heisler, Individually and as Succession
Representative/Executrix of the Succession ofFrederick P. Heisler, No. 793-014 “D”,
24th Judicial District Court for the Parish of Jefferson, State of Louisiana; and
2. Charles Schwab & Co., Inc. v. Girod LoanCo, LLC and Regina B. Heisler, 20184693 “N”, Civil District Court for the Parish of Orleans, State of Louisiana.

)

la

i

i
:

Case 20-1089

Ht^fififtffiffllDaagBOibf Page 2 of 2

IT IS FURTHER ORDERED that any filing by a party or ruling by a court in one of the
Civil Actions will not violate the stay imposed by 11 U.S.C. § 362(a);
IT IS FURTHER ORDERED that only the Chapter 7 Trustee has authority to file any
motions, briefs, exceptions, or other court filings in the Civil Action on behalf of the Debtor,
Regina Berglass Heisler, in her individual capacity. Any court filing on behalf of the Debtor in

i
I'

her individual capacity must be made by the Chapter 7 Trustee; and
IT IS FURTHER ORDERED that the fourteen (14) day stay provision provided in
Federal Rule of Bankruptcy Procedure 4001(a)(3) shall not apply to this Order lifting the
automatic stay.
IT IS FURTHER ORDERED that counsel for movant shall serve this order on the
required parties who will not receive notice through the ECF system pursuant to the FRBP and
the LBR's and file a certificate of service to that effect within three days.
New Orleans, Louisiana, January 18,2021.

MEREDITH S. GRABILL
UNITED STATES BANKRUPTCY JUDGE

I
i

i

i

I
!

2a

UNITED STATES BANKRUPTCY COURT
EASTERN DISTRICT OF LOUISIANA
BANKRUPTCY NO.: 20-11509

IN RE REGINA HEISLER,

CHAPTER 7

DEBTOR.

i

SECTION “A”

!

ORDER STRIKING PLEADINGS
!

The Court has received the Clarification of “Response to Orders ’’ Sent to Trustee, [ECF
Doc. 251], the Notice of Manifest Errors Exposed by the March 10 Transcript, [ECF Doc. 254],
and the Corrected Notice of Manifest Errors Exposed by the March 10 Transcript, [ECF Doc.
255], (together, the “Mid-March Filings”), each filed this week by Henry Klein. After considering
these filings, the record as a whole, and the applicable legal authority, including the Bankruptcy
Code and Federal Rules of Bankruptcy Procedure, the Louisiana Rules of Professional Conduct,
and this Court’s Local Rules, the Court finds as follows.
As this Court has repeatedly stated on the record, and Klein has himself acknowledged,
Klein is not enrolled as Debtor’s counsel in this bankruptcy case. Though Klein has and continues
to represent the Debtor and her late husband’s succession in state court proceedings, he cannot
serve as her representative before this Court. Any attorney representing a debtor’s estate must

:

move for the Court’s authority to do so under 11 U.S.C. § 327. Klein has not so moved and,
further, would not be permitted to represent the Debtor even if he had, due to his direct and
manifest conflict of interest. Klein is a creditor in this bankruptcy case who has filed a proof of

I

claim asserting the Debtor owes him $800,000. See Proof of Claim 4. Under § 327, any attorney
or other professional person employed by the estate must by a “disinterested person,” which the

1
3a

'w>

ir )

)

1
Code explicitly defines as, among other things, “not a creditor, an equity security holder, or an

!

insider.” 11 U.S.C. § 101(14). Klein is expressly disqualified under the Bankruptcy Code from
representing the Debtor in these proceedings. See also La. R. Prof’l. Conduct 1.7 (“[A] lawyer
shall not represent a client if... there is a significant risk that the representation of one or more
clients will be materially limited ... by a personal interest of the lawyer.”)
Though Klein has nominally filed all of his pleadings in this case on his own behalf as a
creditor, many of those filings, including the Mid-March Filings, appear in substance to argue the
Debtor’s interests. Document 251, for instance, urges the Court to find in the Debtor’s favor on
her pending motion for reconsideration filed pro se, [ECF Docs. 235 and 239], and protests once
again that the Debtor’s requests to testify at an evidentiary hearing have not been granted. This
Court will not permit Klein to continue to file thinly veiled arguments on behalf of the Debtor,
who he cannot legally or ethically represent.
Accordingly, and as previously stated on the record, IT IS ORDERED that Mr. Klein shall
not file pleadings or appear before this Court on behalf of the Debtor.
Further, to the extent Klein files these or other pleadings on his own behalf, he must comply
with this Court’s Local Rules and its clearly stated procedures. Local Rule 9013 permits partiesin-interest to file (1) motions for relief and (2) timely objections or responses to other parties’
motions. This Court has consistently established that parties must request and receive leave from
the Court before filing reply briefs or supplemental briefing, and that unauthorized filings may be
stricken from the record. See Local Rule 9013-1(E). Klein, like all other parties, may not file
unsolicited supplemental briefs in support of his prior motions, unsanctioned reply briefs, or other
repetitive filings re-urging matters either already decided or currently pending before the Court
through previously filed motions.

!
;

2
!

4a
!

Finally, any motion filed by Klein, as by any other party, must provide clear notice to the
Court and other parties in interest what relief it seeks and what procedural mechanism permits
such relief to be sought. See FED. R. Bankr. P. 9013 (requiring that every motion “shall state with
particularity the grounds therefore, and shall set forth the relief or order sought”). Up to this point,
this Court has endeavored when it can to interpret and evaluate Klein’s often opaque filings as

S
i
>
I

i

permissible motions under bankruptcy procedure, such as motions to reconsider certain rulings
under Federal Rule of Civil Procedure 59, as made applicable under Federal Rule of Bankruptcy
Procedure 9023. However, though pro se pleadings are entitled to liberal construction, see
Carlucci v. Chapa, 884 F.3d 534, 538 (5th Cir. 2018) (citing Estelle v. Gamble, 429 U.S. 97,106
(1976)), Mr. Klein is a licensed attorney. This Court should not have to carefully scrutinize each
of his filings to determine what if any relief he requests. Unclear and overbroad statements that a
pleading has been “filed in the record as an objection to all aspects of the liquidation process” will
not suffice. [ECF Doc. 251].
Accordingly, to the extent the Mid-March Filings raise arguments on behalf of the Debtor
or seek to reargue Klein’s already filed motions, those argument are not permitted and will not be
considered. If Klein intended the Mid-March Filings to be motions for previously unrequested
relief permitted under bankruptcy law, it is not clear from those documents. Therefore, IT IS
FURTHER ORDERED that Documents 251, 254, and 255 are STRICKEN from the record.
IT IS FURTHER ORDERED that Klein shall comply with the Federal and Local Rules
and procedures by clearly designating in any future motion the relief requested and the grounds
for that requested relief. Further, any such motion shall be properly served under Local Rule 20021, and either set and noticed for hearing pursuant to Local Rule 9013-1(B) or comply with the
requirements for ex parte motions listed in Local Rule 9013- 1(D).

3

5a

;
;

FURTHER, Klein is cautioned that violation of this Order may result in the imposition of
sanctions under 11 U.S.C. § 105(a).
New Orleans, Louisiana, March 17, 2021.

i

C-

!

i

MEREDITH S. GRABILL
UNITED STATES BANKRUPTCY JUDGE

i

i

4

6a

UNITED STATES BANKRUPTCYCOIJRT
FOR THE EASTERN DISTRICT OF LOUISIANA
IN RE:

CASE NO. 20-11509

REGINA BERGLASS HEISLER

CHAPTER 7

j

SECTION A

i

Pro Se Debtor

MOTION FOR CERTIFICATION PURSUANT TO
28 U.S.C. S 158(dlf2RBJ TO THE FIFTH CIRCUIT COURT OF APPEALS

;
:

Hemy L, Klein, pro se Creditor-4 (“Creditor Klein”) and Regina Heisler, pro se
Debtor (“Regina Heisler”), (collectively “Movers”) respectfully move as follows:
The Bankruptcy Abuse Prevention and Consumer Protection Act of 2005
("BAPCPA”) amended Section .158 of Title 28 to give the courts of appeals under certain
conditions jurisdiction to hear an appeal from a judgment or order of the bankruptcy court,
bypassing district court or bankruptcy appellate panel intermediate review. Subpart (A)
creates a certification procedure and vests in the courts of appeals, ifthey authorize the direct
appeal, jurisdiction over the certified appeal. The certification sought here is to an order
rendered April 14,2021, allowing the Chapter 7 Trustee to sell 844 Baronne Street to Girod
LoanC© (“the Order to Sell”). If the Order to Sell is certified and direct appeal is authorized,
intermediate appeals are eliminated.

:

Section 158(d)(2)(A) provides that the certification

can be made at the request of any party to the judgment. Tins request is related to issues
pending before the United States Supreme Court for the April 23, 2021 conference of the

;

Justices and more specifically issues raised by Justice SOTOMAYOR’s concurring opinion
in City of Chicago v. Fulton. 592 U.S.

.(2021).

i

I

1

7a

IMy

■PP/a

I.

THE BASIS FOR CERTIFICATION

!
I

1

The basis for certification must come from the list at subsection (d)(2)(A)(i)-(iii):
(1) the judgment, order, or decree involves a question of law as to which there
is no controlling decision of the court of appeals for the circuit or of the
Supreme Court, or involves a matter of public importance; (2) the judgment,
order or decree involves a question of law requiring resolution of conflicting
decisions; of (3) an immediate appeal from the judgment, order, or decree may
materially advance the progress of the case or proceeding in which the appeal
is taken.

i
i

Subpart (B) amplifies the process. The bankruptcy court, district court, or bankruptcy
appellate panel “shall” make the certification if it determines that at least one of the
circumstances specified in Section 158{d){2){A){.i)-{m) exists. Movers aver that sections (1)
and (3) apply. In Chicago v. Fulton. Justice SOTOMAYOR specifically noted that there is
a gap in Supreme Court precedent that this case fills: the “...Question we Pose...” is this:
IF A CREDITOR COMMENCES AN ACTION PRE­
BANKRUPTCY BUT IS NOT IN ACTUAL POSSESSION OF
THEASSET WHEN THE DEBTOR FILES FOR BANKRUPTCY
PROTECTION, CAN THAT CREDITOR ENGAGE IN ANY
“...ACT TO CREATE, PERFECT OR ENFORCE ANY LIEN
AGAINSTPROPERTY OF THE ESTATE...”AND “...ANYACT
TO COLLECT, ASSESS, OR RECOVER A CLAIMAGAINSTA
DEBTOR THAT AROSE PRIOR TO BANKRUPTCY
PROCEEDINGS}?
Notwithstanding (i) the undecided argument that Regina Heisler was defrauded into
signing the toxic paper Girod holds, (ii) received no consideration that Girod can prove, (iii)
the lack of any evidentiary hearing on any substantive issue, the Question Posed is
undisputed: the claim arose before bankruptcy was filed and neither 844 Baronne and tire
$2,1 million in the registry of the court were in possession of the trustee or the creditor when

\

;
;

SOTOMAYOR, at page 1.
2

8a

i

the April 14 Order to Sell was rendered, It is also undisputed that the use of § 542(a) by the
Trustee is an adversary process that has not commenced in this case, despite multiple
requests by movers, individually and together.
In concurring with Justice ALITO, Justice SOTOMAYOR articulated the issue thus:
Section 362(a)(3) of the Bankruptcy Code provides that the
filing of a bankruptcy petition “operates as a stay” of “any act.
.. to exercise control over property of the [bankruptcy] estate.”
11 U. S. C, §362{aX3). I join the Court’s opinion because I
agree that, as used in §362(a)(3), the phrase “exercise control
over” doe® not cover a creditor’s passive retention of property
lawfully seized prebankruptcy. Hence, when a creditor has taken
possession of a debtor’s property, §362(a)(3) does not require
die creditor to return the property upon the filing of a
bankruptcy petition. I write separately to emphasize that the
Court has not decided whether and when §362(a)’s other ■
provisions may require a creditor to return a debtor’s property.
Those provisions stay, among other tilings, “any act to create,
perfect,or enforce any .lien against property of the estate” and
“any act to collect, assess, or recover a claim against [a] debtor”
that arose prior to bankruptcy proceedings. §§362(a){4), (6);
see, e.g., In re Kuehn, 563 F, 3d 289,294 (CA7 2009) (holding
that a universily’s refusal to provide a transcript to a
student-debtor “was an act to collect a debt” that violated the
automatic stay). Nor has the Court addressed how bankruptcy
courts should go about enforcing creditors’ separate obligation
to “deliver” estate property to the trustee or debtor under
§S42(a). The City’s conduct may very well violate one or both'
of these other provisions, The Court does not decide one way or
the other.... ‘The principal purpose ofthe Bankruptcy Code is to
grant a ‘“fresh start97 777 to debtors. Manama v, Citizens Bank of
Mass,, 549 U. S. 365, 367 (2007) (quoting Grogan v. Garner,
498 U. S. 279,286 (1991)),
This Court’s agreement or disagreement with our request should not preclude the

.

i
!
i
!
|

i

certification. At the end of her concurring opinion, Justice SOTOMAYOR commented that
“...Ultimately, however, any gap left by the Court’s ruling today is best addressed by the rule
drafters and policymakers, not bankruptcy Judges
3

9a

1:•

i

The issue of the lifting of the stay and holding movers’ objection to POC-3 in

t

I

abeyance makes this case all the more unusual, if not res nova. If the Supreme Court
enforces Caperton and Henson. that will still leave the clawing-hack of the Kenner shopping
center still to be done, which is why we filed 21-724 on behalf of the Succession.

i

The

Court’s indulgence in our procedural ineptness should not be considered a sign of bad faith.
A proposed order is provided. Because the Justices will take this matter up in seven

*
i

days, time is of the essence.

!i

Respectfully Submitted,

i

/$/ Henrv L. Klein
Henry L. Klein
844 Baronne Street
New Orleans, LA 70113
(504) 301-3027
henrvklein44@gmail.com

;
l

.ophtL Heisler, pro se

!
;

10a

UNITED STATES BANKRUPTCY COURT
FOR THE EASTERN DISTRICT OF LOUISIANA
20-11509
REGINA BERGLASS HEISLER

CHAPTER ?

0BJECI.IQNTO,,,FURTHER PROCEEDINGS WITHOUT
AN Ey.I.DENTlAEY,HlARING AS TO THE VALIDITY OF POC-3
Regina B. Hei&ler, Debtor pro se and Henry L. Klein, Creditor-4, (“Objectors”)
formally object to further proceedings without an evidentiary hearing on the validity, vdnon,
of POC-3. The Court has, on various occasions, announced that it will hold a hearing at a
tune the court is ready, but that time is not now', Respectfully, the liquidation of assets for
the benefit of Girod LaamCo without a determination as to the validity of POC-3 is
potentially a violation o f the const! national rights of both objectors. It will be impossible to
reconstruct the status quo ante if it eventuates that POC-3 is invalid or unsecured. At a
motion hearing held April 21, 2021, the Court approved “...the compromise of a
controversy...” pending in Civil District Court for the Parish of Orleans by and between the
Trustee and Girod for the paltry price of $21,000.
8,... THE RIGHT OF LITIGIOUS REDEMPTION
The agreement to let Girod have $2.1 million in the registry of the Civil District Court
3

means that Girod has bought, the litigation for $21,000, as to which the debtor has the right
to exercise litigious redemption pursuant to Louisiana Civil Code Article 2652,

The

demand has been made and will be raised in Civil District Court immediately. By any
measure, the “controversy^ that was “compromised” without Regina Heisler is a classic case
to be decided pursuant to Louisiana Law. by the Louisiana Courts and this Court may not

l

11a

\

!
!

have jurisdiction to order the Civil District Court to do anything with the money in its
custody8. Originally, an Interpleader was filed in Federal Court at Docket 18-2522 on
diversity grounds until Girod claimed that it had a “Louisiana member” which spoiled

i

;
i

diversity. Hosier objected because Girod i$ a “silo structured” entity which keeps its
ownership secret, a matter that resulted in the dismissal by Judge Harold Baer in WaterStreet
vJtesksiffjmmm, an issue that has been ignored in this case. Before the Interpleader was

i

dismissed, Heisler called for the enforcement of the right of litigious redemption. After the

i

case was re-filed in Civil District Court, Heisler called for the right of litigious redemption.
Today, a fter the Memo to the Record was memorialized, Heisler cal led for the enforcement
of foe right of litigious redemption. Exhibit A.
IkJOjESALK OF 844 BARONNF.
Our objection to foe sale of844 Baronne is the same as before. However-, it appears
that foe Court recognized foe “...over-reach...'” and will not approve foe proposed order.
From our perspective, it was clear that foe proposed order was a request for “...an advisory
opinion..." as to a release long ago confected. As with, all orders approving liquidation of
assets, Objectors urge foe Court not to grant reliefuntil evidence is adduced regarding POC-3
and foe myriad of defenses that compel disallowance.
ill* UNDISPUTED FACTS
Long ago, Objectors filed a Motion for Summary Judgment .and have filed many
pleadings that the Court has apparently not considered. But it is undisputed that Girod has
no evidence that any Heisler entity received consideration for the notes it holds. None, It
1

The jurisdictional issue will he MOOT if the United States Supreme Court grants GVR or if this
Court holds an evidentiary hearing and concludes that Regina Heisler never received a dime of the
criminal money pomted from FNBC by the defendants in the criminal cases. It is inexplicable why the
Cowl has failed to consider' these travesties ofjustice.

i
!

2
;

12a

is also undisputed that the notes Girod purchased were the “...fruits of a poisonous tree...’'’
It is undisputed that Kean Miller s due diligence provided ample bases for the application of

I

ABA FORMAL OPINION 491 against lawyers "... turning a blind eye...” to clients intending
to engage in fraud or crime. This Court cannot ignore USA v. Gibbe USA v. Rvmr USA »
§L.dmd&Unaccustomed to the vicissitudes of bankruptcy procedure, we don’t understand how
or why the Court is delaying the vetting of the most important element in the case, POC-3.
The Court s stem orders that Creditor-4 not file pleadings that appear to be helpful to the
Debtor is perplexing. Your undersigned has often stated that he will never seek payment for

I
;
;

anything post-petition. And if POC-3 stands, POC-4 will he worthless. The Court’s harsh
view that there is a conflict fails to consider that the Debtor has the exact same goal: to
defeat Girod s claim. In balancing the equities, we respectfully submit that the pro se
debtor’s substantive rights are being unconstitutionally-extinguished.
Walking on egg-shells is no fiat The Court is asked to look at toe Debtor’s side of
the case without giving Girod any further refuge from toe truth: POC-3 must be disallowed.
Very respectfully submitted,

;

Henry L. Klein, pro se Creditor^
844 Baronne Street
New Orleans, LA 70113
(504) 301-3027
henryklem44@ gmai l.cnm

i
i

\
3

13a

4/21/2021

fMl Gmail

Grreii - RigM of Litigious Redemption

Henry Klein <hanryktein44@gm3il.com>
r

Right of Litigious Redemption
1 message
Henry Klein <henrylitein44@gma}Ie©m>
Wad, Apr 21,2021 at 7:27 PM
To: "Frederick L Bunol" <F8unQl@derbesiaw.com>, "Wilbur J. Sabirs, Jr.” <babm@derbesiaw.com>, Eric Lockridge
«SricJockridge@keanmilter,com>, "Bergeron, Christy (USTP)” <Chrisfy.Bergeron@u$doj.gov>
See: Dayna Heifer <dhester4133@gmaiS.com>, Michael Bagneris <madiyn2@lbelisouih.net>

iI

I

{
i

!

The sate of the litigation by the Trustee to Girod tor the sum of $21,000 is subject to the Right of Litigious Redemption.
Please confirm your willingness to accept $21,000 for toe redemption of toe litigious rights by noon tomorrow.

I
‘

Bsruy

;
:

UNITED STATES BANKRUPTCY COURT
EASTERN DISTRICT OF LOUISIANA
IN RE:

CASE NO.: 20-11509

REGINA BERGLASS HEISLER,

CHAPTER 7
SECTION A

Debtor

\

Order Granting Motion To Vacate Oral Order on February 24, 2021 and Holding in
Abeyance the Objection to Claim No. 3 of Girod Loanco

I
t

The Court held a hearing on March 24, 2021, on the Motion To Vacate Oral Order on

i

February 24, 2021, filed by Creditor Henry L. Klein (the “Motion For Reconsideration”). [ECF
Doc. 227], and the Opposition thereto filed by Girod Loanco, LLC, [ECF Doc. 257].
Appearances were as reflected in the record.
After considering the pleadings, the arguments of counsel and parties, the record of this
case, the applicable law, and for the reasons orally assigned,
IT IS ORDERED that the Motion For Reconsideration is GRANTED, and the February
24, 2021 ruling at ECF Doc. 222 that overruled the Objection to Claim No. 3 of Girod Loanco,
(the “Objection To POC-3”L [ECF Doc. 116], is VACATED.
IT IS FURTHER ORDERED that the Objection To POC-3 is HELD IN ABEYANCE
pending the United States Supreme Court’s disposition of the Petition for a Writ of Certiorari
filed by Henry Klein. See [ECF Doc. 237].
New Orleans, Louisiana, April 27,2021.

|
!

!
!

MEREDITH S. GRABILL
UNITED STATES BANKRUPTCY JUDGE

k. '•

15a

t

No. 20-1361

In the Supreme Court of the United States
Regina Berglass Heisler, individually and as the executrix
of the Succession of Frederick P. Heisler,
Petitioner,
v.
Girod LoanCo, LLC,
Respondent.

Rule 44 PETITION FOR REHEARING as to April 26 Denial of Certiorari

ON PETITION FOR WRIT OF CERTIORARI TO THE
LOUISIANA SUPREME COURT

Henry L. Klein (SCOTUS Bar 99146)
844 Baronne Street
New Orleans, LA 70113
504-439-0488
henryklein44@gmail.com

Admitted to the United States Supreme Court
Bar on September 6, 1974

QUESTIONS PRESENTED
On January 18, 2021, the United States Bankruptcy Court for the Eastern
District of Louisiana, at Docket 20-11509, lifted the Stay imposed by 11 U.S.C. § 362,
(i) allowing Girod LoanCo, LLC (“Girod”) to execute on two state actions commenced
pre-bankruptcy, (ii) not yet concluded or perfected, but (iii) being enforced post­
bankruptcy.

The January 18, 2021 Order declares that:
“...any filing by a party or ruling by a court in one of the civil
actions will not violate the stay imposed by 11 U.S.C. §
362(a)...”

1.

Is the January 18, 2021 Order by the bankruptcy court contrary to
Justice SOTOMAYOR’s concurring opinion in City of Chicago v.
Fulton. 592 U.S.

2.

(2021), decided January 14, 2021?

Do the actions by Girod and the January 18 Order constitute
“...intervening circumstances of a substantial or controlling effect
or to other substantial grounds not previously presented...” so as
to justify rehearing?

3.

Does the case at bar fill the gap identified by Justice
SOTOMAYOR at page 1 of the published concurring opinion in
City of Chicago u. Fulton?

l

TABLE OF CONTENTS

Questions Presented

1

Table of Authorities

in

Argument Favoring Rehearing

1

Relief Requested.....................

5

Rule 44(1) Certificate ............

6

n

TABLE OF AUTHORITIES

Cases
Chicago v. Fulton,

U.S.

(2021) ....................................................

passim

Keyishian v. Board of Regents, 385 U.S. 589 (1968) ...........................

2

NAACP v. Button, 371 U.S. 360 (1964) ................ ...............................

2-3

Wolff v. Selective Service Local Board 16, 372 F.2d 817 (2d Cir. 1967)

2

Other Authorities
ABA FORMAL OPINION 491

2

in

ARGUMENT FAVORING REHEARING
Petitioner’s Original Petition (“CERT Petition”) could not reasonably raise
Chicago v. Fulton issues because the actions by Girod and by the bankruptcy court had
not ripened.

Clearly, Petitioner’s April 20, 2021 supplement to this High Court

addressed Justice SOTOMAYOR observations about “...acts to perfect and enforce liens
against property of the estate and acts to collect, assess, or recover a claim against the
debtor...” when seizures are commenced pre-bankruptcy but not yet perfected or
achieved when bankruptcy is filed. The following chronology establishes that the
undecided issues identified by Justice SOTOMAYOR are extant in the case at bar,
which is still in the process of “...intervening circumstances...” justifying rehearing
without re-urging issues in the CERT Petition1:
November 13. 2017: The FDIC, liquidator of First NBC Bank, sold a
multimillion dollar package of debt to Girod which included $600,000 in
Heisler debt bloated to $7.9 million, predicted by Girod to reach $15
million.
Girod filed a state-court claim to the $2.1 million
July 19. 2018:
still subject to a “status quo”
investment account left to Petitioner
order by the state court pending resolution of issues presented by the
CERT Petition and elsewhere.
Girod obtained a writ of seizure against all estate
June 30. 2019:
property, presently (but not conclusively) impacting (i) the ownership of
844 Baronne Street, set for sale to Girod in early May and (ii) the
ownership of a shopping center deeded by the Sheriff to Girod REO in
violation of 28 U.S.C. 1446(d).

For perspective and context, key pleadings, motions and orders are essential to take this case to
1
the level necessary to meet the issues Justice SOTOMAYOR identified in Chicago v. Fulton. Respectfully,
there may never be a case that “.■■fills the gap...” as in the case at bar.

1

Petitioner filed a pro se Chapter 11, converted to
August 27, 2020:
Chapter 7 on September 28, 2020.
October 21. 2020:

Girod filed a Proof of Claim (“POC-3") for $7,869,608.

November 20. 2020: Objection to POC-3 was filed with a request for an
evidentiary hearing2.
January 14. 2021:
(*)3

Chicago vs. Fulton was decided.

January 18. 2021: The bankruptcy court lifted the stay imposed by 11
U.S.C. § 362(a) specifically as to the foreclosure case and the concursus
(interpleader) case, Rehearing Appendix A.
March 17. 2021:

CERT Petition was filed, docketed March 26, 2021.

(*)

March 17. 2021:
The bankruptcy court entered an Order Striking
Pleadings. Doc. 256, expressing an opinion that undersigned counsel
should not file pleadings collaterally supporting Petitioner4, Rehearing

2

Notwithstanding (i) the multi-million dollar levels involved, (ii) the equitable nature of

bankruptcy, (iii) the criminality that collapsed FNBC, (iv) the violation of FDIC pohcy against allowing
bidders from “secrecy jurisdictions” and (v) ABA FORMAL OPINION 491, there has never been an
evidentiary hearing Petitioner has oft-beseeched the court to hold.
3

(*) indicates Appendix submissions applicable to this Petition for Rehearing.

4

The Order had a constitutional chilling effect on the right to advocate: “This Court will not

permit Klein to continue to file thinly veiled arguments on behalf of the Debtor, who he cannot legally
or ethically represent. Accordingly, and as previously stated on the record, IT IS ORDERED that Mr.
Klein shall not file pleadings or appear before this Court on behalf of the Debtor.” In the final
paragraph, the bankruptcy court warned that sanctions might follow pursuant to 11 U.S.C. § 105(a).
This Court has held that threats of sanctions are the “...most lethal enemies of the First Amendment...”,
Kevishian v. Board of Regents. 385 U.S. 589 (19681. At Wolff v. Selective Service Local Board 16. 372 F.2d
817 (1967), the 2nd Circuit Court of Appeals, citing NAACP v. Button. 371 U.S. 360 (1964), said this:

2

Appendix B.
April 8. 2021: Petitioner filed a “claw-back” case involving the Kenner
Shopping Center the Trustee declined to file, Heisler v. Kean Miller.
Girod LoanCo. Girod REO. et alia. Eastern District of Louisiana Docket
21-724.
Petitioner and Creditor-4 (Henry L. Klein, pro se) filed
April 16. 2021:
a Joint Motion for Certification Pursuant to 28 U.S.C. § 158(d)(2)(B) to
the Fifth Circuit Court of Appeals. (Doc. 309), posing the question raised
by Justice SOTOMAYOR, Rehearing Appendix C5.

(*)

April 17. 2021: All tenants at 844 Baronne Street were evicted by order
of the bankruptcy court6.
April 20. 2021:

Trustee changed all locks at 844 Baronne Street.

Petitioner and Creditor-4 filed a joint Objection to
April 21. 2021:
Further Proceedings Without an Evidentiary Hearing as to the Validity
of POC-3. (Doc. 321), Rehearing Appendix D. hearing not set as of May 3,

(*)

2021.
April 23. 2021:
conference.

Petitioner’s CERT Petition was considered at

“Since it is the mere threat of unconstitutional sanctions which
precipitates the injury, the courts must intervene at once to vindicate the
threatened liberties.”
5

.

IF A CREDITOR COMMENCES AN ACTION PRE-BANKRUPTCY BUT IS NOT IN
ACTUAL POSSESSION OF THE ASSET WHEN THE DEBTOR FILES FOR
BANKR UPTCY PROTECTION, CAN THAT CREDITOR ENGAGE IN ANY “.. .ACT TO
CREATE , PERFECT OR ENFORCE ANY LIEN AGAINST PROPERTY OF THE
ESTATE..." AND “...ANY ACT TO COLLECT, ASSESS, OR RECOVER A CLAIM
AGAINST THE DEBTOR THATAROSE PRIOR TO BANKRUPTCY PROCEEDINGS?

The Law Offices of Henry L. Klein; Julie Klein Interiors; Kavanagh & Rendiero, PLC; the Law
6
Offices of Theodore Fish; New Orleans Legal, Inc.; and Attorney Peter Diiorio.

April 26. 2021:
(*)

Denial published.

Bankruptcy court vacated order overruling dual
April 27. 2021:
objections to POC-3, but held the objection in abeyance “...pending the
United States Supreme Court’s disposition of the Petition for a Writ of
Certiorari filed by Henry Klein, (Doc. 324), Rehearing Appendix E.
Although the bankruptcy court granted minimal relief on April 27, 2021, (i) the

lift-stay order remains in effect, (ii) your pro se Petitioner has yet to have a hearing on
matter requested and (iii) the ruling contradicting Justice SOTOMAYOR’s
observations remains “...the law of the case...”

The gravamen of this Petition for

Rehearing is based on the following:
I write separately to emphasize that the Court has not
decided whether and when §362(a)’s other provisions may
require a creditor to return a debtor’s property. Those
provisions stay, among other things ‘any act to create,
perfect or enforce any lien against property of the estate’
and ‘any act to collect, assess, or recover a claim against [a]
debtor’ that arose prior to bankruptcy proceedings,
§§362(a)(4), (6).... Nor has the Court addressed how
bankruptcy courts should go about enforcing creditors’
separate obligation to ‘deliver’ estate property to the trustee
or debtor under §542(a). The City’s conduct may very well
violate one or both of these other provisions. The Court does
not decide one way or the other (Internal citations omitted).
This case fills the gap identified in Chicago u. Fulton.

The level of activity

taking place as we write is substantial and the issue sub iudice is developing at
constitutionally-unacceptable levels and speed.

4

RELIEF REQUESTED
The Justices of the United States Supreme Court are independently capable of
recognizing issues that would give Petitioner prompt succor.

We simply try to help

as best as we can. Unless this Court takes action, the assets of the debtor’s estate are
on their way to immediate liquidation before there is a ruling on the allowance or
disallowance of POC-3, followed by a trip to the Cayman Islands,
irreparable.

The damage is

844 Baronne Street is empty but for a “...law library to die for...”

abandoned in the purge7.

The Act of Sale from the Trustee to Girod will take place

soon after May 10 on a credit bid of $1.8 million with a $107,000 carve-out to the
debtor’s estate. The claim for the $2.1 million in state court with a $21,000 carve-out
to the estate is moving apace, portending a Rooker-Feldman and Article III war.

Respectfully submitted,

Henry L. Klein
844 Baronne Street
New Orleans, LA 70113
504-439-0488
henryklein44@gmail.com

7

Appendix C. Supplemental Brief Distributed.

5

RULE 44(1) CERTIFICATE
I, Henry L. Klein, certify that the Petition for a Rehearing from the April 26,

j

2021 Order denying certiorari is limited to intervening circumstances not available or
ripened when the Original Petition for Certiorari was filed.

The intervening

circumstances are substantial but were not capable of articulating at an earlier date.

i

The “...controlling...” aspect is Justice SOTOMAYOR’s concurrence on January 14,
2021, contradicted by the January 18,2021 order that “...any filing by a party or ruling
by a court in one of the civil actions will not violate the stay imposed by 11 U.S.C.
362(a)...” The Petition for Rehearing does not urge matters denied by the original
Petition for Certiorari, but only provides facts necessary for perspective, and context.
X

The Petition is presented in good faith and not for delay.

i

______________ _________________________ ________ _

Henry L. Klein, Supreme Court Bar 1994IF
Respectfully submitted,

L/

Henry L. Klein
844 Baronne Street
New Orleans, LA 70113
504-439-0488
henryklein44@gmail.com
Admitted to the United States Supreme Court
Bar on September 6, 1974

6

!

Case 20-1CCSQ8

mMlWWIM. Dgtegisdnibf Page a of 2

UNITED STATES BANKRUPTCY COURT
EASTERN DISTRICT OF LOUISIANA
IN RE:

CASE NO.: 20-11509

REGINA BERGLASS HEISLER,

CHAPTER 7

Debtor

SECTION A

!
!
!

:

ORDER GRANTING RELIEF FROM THE AUTOMATIC STAY

The Motion to Lift Stay Pursuant to 11 U.S.C. § 362(d)(2) (P-135) (the “Motion”) filed

;
;

by Girod LoanCo, LLC (“Girod”) came for hearing on January 6,2020 at 1:00 p.m.
- APPEARANCES:

As reflected in the record.

After considering the Motion, the Designation of Contested Matter and Request for
Expediting Responses to Admissions and Scheduling Deposition (P-141) filed by Creditor Henry
L. Klein (“Klein”), the record of this case including other documents filed by Klein, the
applicable law, and the statements of counsel at the hearing, the Court grants the relief requested
as follows:
IT IS ORDERED that the Motion is GRANTED as set forth herein;
IT IS FURTHER ORDERED that the stay imposed by 11 U.S.C. § 362(a) is hereby
lifted as to the following civil actions pending in state court (jointly, the “Civil Actions”):

;

1. Girod LoanCo, LLC v. Regina B. Heisler, Individually and as Succession
Representative/Executrix of the Succession ofFrederick P. Heisler, No. 793-014 “D”,
24th Judicial District Court for the Parish of Jefferson, State of Louisiana; and
2. Charles Schwab & Co., Inc. v. Girod LoanCo, LLC and Regina B. Heisler, 20184693 “N”, Civil District Court for the Parish of Orleans, State of Louisiana.

i

i
:
i

la

Case 20-HC889

HttflfiBftffiffll Dgfcagta©i<bf Page 2 of 2

IT IS FURTHER ORDERED that any filing by a party or ruling by a court in one of the
Civil Actions will not violate the stay imposed by 11 U.S.C. § 362(a);
IT IS FURTHER ORDERED that only the Chapter 7 Trustee has authority to file any

f

motions, briefs, exceptions, or other court filings in the Civil Action on behalf of the Debtor,
Regina Berglass Heisler, in her individual capacity. Any court filing on behalf of the Debtor in

l
L

her individual capacity must be made by the Chapter 7 Trustee; and
IT IS FURTHER ORDERED that the fourteen (14) day stay provision provided in

[

Federal Rule of Bankruptcy Procedure 4001(a)(3) shall not apply to this Order lifting the
automatic stay.
IT IS FURTHER ORDERED that counsel for movant shall serve this order on the
required parties who will not receive notice through the ECF system pursuant to the FRBP and
the LBR's and file a certificate of service to that effect within three days.
New Orleans, Louisiana, January 18,2021.

MEREDITH S. GRABILL
UNITED STATES BANKRUPTCY JUDGE

*

f

i

!
!

2a

UNITED STATES BANKRUPTCY COURT
EASTERN DISTRICT OF LOUISIANA

I

BANKRUPTCY NO.: 20-11509

IN RE REGINA HEISLER,

CHAPTER 7

DEBTOR.

I

SECTION “A”

!
;

ORDER STRIKING PLEADINGS
The Court has received the Clarification of "Response to Orders ” Sent to Trustee, [ECF
Doc. 251], the Notice ofManifest Errors Exposed by the March 10 Transcript, [ECF Doc. 254],
and the Corrected Notice of Manifest Errors Exposed by the March 10 Transcript, [ECF Doc.
255], (together, the “Mid-March Filings”), each filed this week by Henry Klein. After considering
these filings, the record as a whole, and the applicable legal authority, including the Bankruptcy
Code and Federal Rules of Bankruptcy Procedure, the Louisiana Rules of Professional Conduct,
and this Court’s Local Rules, the Court finds as follows.
As this Court has repeatedly stated on the record, and Klein has himself acknowledged,
Klein is not enrolled as Debtor’s counsel in this bankruptcy case. Though Klein has and continues
to represent the Debtor and her late husband’s succession in state court proceedings, he cannot
serve as her representative before this Court. Any attorney representing a debtor’s estate must
move for the Court’s authority to do so under 11 U.S.C. § 327. Klein has not so moved and,
further, would not be permitted to represent the Debtor even if he had, due to his direct and
manifest conflict of interest. Klein is a creditor in this bankruptcy case who has filed a proof of

;

claim asserting the Debtor owes him $800,000. See Proof of Claim 4. Under § 327, any attorney

i
*

or other professional person employed by the estate must by a “disinterested person,” which the

1
3a

•
i/-

!
i
'

j

Code explicitly defines as, among other things, “not a creditor, an equity security holder, or an
insider.” 11 U.S.C. § 101(14). Klein is expressly disqualified under the Bankruptcy Code from
representing the Debtor in these proceedings. See also La. R. Prof’l. Conduct 1.7 (“[A] lawyer

!

shall not represent a client if... there is a significant risk that the representation of one or more

i

clients will be materially limited ... by a personal interest of the lawyer.”)
Though Klein has nominally filed all of his pleadings in this case on his own behalf as a
creditor, many of those filings, including the Mid-March Filings, appear in substance to argue the
Debtor’s interests. Document 251, for instance, urges the Court to find in the Debtor’s favor on
her pending motion for reconsideration filed pro se, [ECF Docs. 235 and 239], and protests once
again that the Debtor’s requests to testify at an evidential hearing have not been granted. This
Court will not permit Klein to continue to file thinly veiled arguments on behalf of the Debtor,
who he cannot legally or ethically represent.
Accordingly, and as previously stated on the record, IT IS ORDERED that Mr. Klein shall
not file pleadings or appear before this Court on behalf of the Debtor.
Further, to the extent Klein files these or other pleadings on his own behalf, he must comply
with this Court’s Local Rules and its clearly stated procedures. Local Rule 9013 permits partiesin-interest to file (1) motions for relief and (2) timely objections or responses to other parties'
motions. This Court has consistently established that parties must request and receive leave from
the Court before filing reply briefs or supplemental briefing, and that unauthorized filings may be
stricken from the record. See Local Rule 9013-1(E). Klein, like all other parties, may not file
unsolicited supplemental briefs in support of his prior motions, unsanctioned reply briefs, or other
repetitive filings re-urging matters either already decided or currently pending before the Court
through previously filed motions.

I

j
'

2

4a

i

■J

Finally, any motion filed by Klein, as by any other party, must provide clear notice to the

I

Court and other parties in interest what relief it seeks and what procedural mechanism permits

!
!

such relief to be sought. See FED. R. Bankr. P. 9013 (requiring that every motion “shall state with

!

particularity the grounds therefore, and shall set forth the relief or order sought”). Up to this point,

!
I

this Court has endeavored when it can to interpret and evaluate Klein’s often opaque filings as
permissible motions under bankruptcy procedure, such as motions to reconsider certain rulings
under Federal Rule of Civil Procedure 59, as made applicable under Federal Rule of Bankruptcy
Procedure 9023. However, though pro se pleadings are entitled to liberal construction, see
Carlucci v. Chapa, 884 F.3d 534, 538 (5th Cir. 2018) (citing Estelle v. Gamble, 429 U.S. 97,106
(1976)), Mr. Klein is a licensed attorney. This Court should not have to carefully scrutinize each
of his filings to determine what if any relief he requests. Unclear and overbroad statements that a
pleading has been “filed in the record as an objection to all aspects of the liquidation process” will
not suffice. [ECF Doc. 251].
Accordingly, to the extent the Mid-March Filings raise arguments on behalf of the Debtor
or seek to reargue Klein’s already filed motions, those argument are not permitted and will not be
considered. If Klein intended the Mid-March Filings to be motions for previously unrequested
relief permitted under bankruptcy law, it is not clear from those documents. Therefore, IT IS
FURTHER ORDERED that Documents 251, 254, and 255 are STRICKEN from the record.
IT IS FURTHER ORDERED that Klein shall comply with the Federal and Local Rules
and procedures by clearly designating in any future motion the relief requested and the grounds
for that requested relief. Further, any such motion shall be properly served under Local Rule 20021, and either set and noticed for hearing pursuant to Local Rule 9013-1(B) or comply with the
requirements for ex parte motions listed in Local Rule 9013-1(D).
I

3

5a

FURTHER, Klein is cautioned that violation of this Order may result in the imposition of
sanctions under 11 U.S.C. § 105(a).
New Orleans, Louisiana, March 17, 2021.

!
!
;
?

MEREDITH S. GRABILL
UNITED STATES BANKRUPTCY JUDGE

:
:
!

!

i

i

j

4

6a

UNITED STATES BANKRUPTCYCOURT

i

FOR THE EASTERN DISTRICT OF LOUISIANA
IN RE:

CASE NO, 20-11509

REGINA BERGLASS HEISLER

CHAPTER 7

Pro Se Debtor

SECTION A
I
i

MOTION FOR CERTIFICATION PURSUANT TO
;
!

28 U-S.C. S 158(dR2KBJ TO THE FIFTH CIRCUIT COURT OF APPEALS
Henry L, Klein, pro se Creditor-4 (“Creditor Klein”) and Regina Heisler, pro se
Debtor (4tRegma Heisler”), (collectively “Movers”) respectfully move as follows:
The Bankruptcy Abuse Prevention and Consumer Protection Act of 2005
("BAPCPA”) amended Section 158 of Title 28 to give the courts of appeals, under certain
conditions jurisdiction to hear an appeal from a judgment or order of the bankruptcy court,
bypassing district court or bankruptcy appellate panel intermediate review. Subpart (A)
creates a certification procedure and vests in the courts of appeals, if they authorize the direct
appeal, jurisdiction over the certified appeal. The certification sought here is to an order
rendered April 14,2021, allowing the Chapter 7 Trustee to sell 844 Baronne Street to Girod
LoanCo (“the Order to Sell”). Ifthe Order' to Sell is certified and direct appeal is authorized,
intermediate appeals are eliminated.

:

Section 158(d)(2)(A) provides that the certification

can be made at the request of any party to the judgment. Tins request is related to issues

i

pending before the United States Supreme Court for the April 23, 2023 conference of the

!

Justices and more specifically issues raised by Justice SOTOMAYOR’s concurring opinion
in City of Chicago v. Fulton. 592 U.S.___(2021).

i
!

1

i
■'\

7a

/■

/f'1

.--i

!

I.

THE BASIS FOR CERTIFICATION

j

The basis for certification must come from the list at subsection (d)(2)(A)(i)-(iii);
(1) the judgment, order, or decree involves a question of law as to which there
is no controlling decision of the count of appeals for the circuit or of the
Supreme Court, or involves a matter of public importance; (2) the judgment,
order or decree involves a question of law requiring resolution of conflicting
decisions; or (3) an immediate appeal from the judgment, order, or decree may
materially a dvance the progress of the case or proceeding in which the appeal
is taken.

i

:

Subpart (B) amplifies the process. The bankruptcy court, district court, or bankruptcy
appellate panel “shall” make the certification if it determines that at least one of the
circumstances specified in Section 158{d){2){ A){i)-{iii) exists. Movers aver that sections (1)
and (3) apply. In Chicago v. Fulton. Justice SOTOMAYOR specifically noted that there is
a gap in Supreme Court precedent that this case fills: the “...Question we Pose...” is this:
IF A CREDITOR COMMENCES AN ACTION PRE­
BANKRUPTCY BUT IS NOT IN ACTUAL POSSESSION OF
THE ASSET WHEN THE DEBTOR FILES FOR BANKRUPTCY
PROTECTION, CAN THAT CREDITOR ENGAGE IN ANY
“...ACT TO CREATE, PERFECT OR ENFORCE ANY LIEN
AGAINSTPROPERTY OF THE ESTATE..."AND “...ANYACT
TO COLLECT, ASSESS, OR RECOVER A CLAIMAGAINSTA
DEBTOR THAT AROSE PRIOR TO BANKRUPTCY
PROCEEDINGS}?
Notwithstanding (1) the undecided argument that Regina Heisler was defrauded into
signing the toxic paper Girod holds, (ii) received no consideration that Girod can prove, (iii)
the lack of any evidentiary hearing on any substantive issue, the Question Posed is
undisputed: the claim arose before bankruptcy was filed and neither 844 Baronne and the
$2,1 million in the registry of the court were in possession of the trustee or the creditor when
;

1

■

SOTOMAYOR, at page 1.

i

2

8a

!

the April 14 Order to Sell was rendered. It is also undisputed that the use of § 542(a) by the
Trustee is an adversary process that has not commenced in this case, despite multiple
requests by movers, individually and together.
In concurring with Justice AUTO, Justice SOTOMAYOR articulated the issue thus:
Section 362(a)(3) of the Bankruptcy Code provides that the
filing of a bankruptcy petition “operates as a stay” of “any act.
.. to exercise control over property of the [bankruptcy] estate.”
11 U, S. C. §362{a)(3). I join die Court’s opinion because 1
agree that, as used in §362(a)(3), the phrase “exercise control
over” does not cover a creditor’s passive retention of property
lawfully seized prebankmptcy. Hence, when a creditor has taken
possession of a debtor’s property, §362(a)(3) does not require
tile creditor to return Hie property upon the filing of a
bankruptcy petition. 1 write separately to emphasize that the
Court has not decided whether and when §362(a)’s oilier
provisions may require a creditor to return a debtor’s property.
Those provisions stay, among other tilings, “any act to create,
perfect,©!' enforce any lien against property of the estate” and
“any act to collect, assess, or recover a claim against [a] debtor”
that arose prior to bankruptcy proceedings. §§362(a){4), (6);
see, e.g., In re Kuelra, 563 F. 3d 289,294 (CA7 2009) (holding
that a university’s refusal to provide a transcript to a
student-debtor “was an act to collect a debt” that violated the
automatic stay). Nor has the Court addressed how bankruptcy
courts should go about enforcing creditors’ separate obligation
to “deliver” estate property to the trustee or debtor under
§542(a). The City’s conduct may very well violate one or both
of these other provisions, The Court does not decide one way or
the other “The principal purpose ofthe Bankruptcy Code is to
grant a “‘fresh start to debtors. Manama v. Citizens Bank of
Mass., 549 U. S. 365, 367 (2007) (quoting Grogan v. Gamer,
498 U. S. 279, 286 (1991)).

!

i
!

ii
I
I

5? ???

This Court’s agreement or disagreement with our request should not preclude the
certification. At the end ofher concurring opinion, Justice SOTOMAYOR commented that
..Ultimately, however, any gap left by the Court’s ruling today is best addressed by the rule
drafters and policymakers, not bankruptcy fudges”
3

9a

\
•

■

;

The issue of the lifting of the stay and holding movers’ objection to POC-3 in
abeyance makes this case all the more unusual, if not res nova. If the Supreme Court

i

enforces Caperton and Henson. that will still leave the clawing-back of the Kenner shopping
center still to be done, which is why we filed 21-724 on behalf of the Succession.

The

Court’s indulgence in our procedural ineptness should not be considered a sign of bad faith.
A proposed order is provided. Because the Justices will take this matter up in seven

<

days, time is of the essence.
Respectfully Submitted,

s
!
!
!

/s/ Henry L. Klein
Henry L. Klein
844 Baronne Street
New Orleans, LA 70113
(504) 301-3027
henrvklein44@gmail.com

1

.epna Heisler, pro se

\
!

10a

UNITED STATES BANKRUPTCY COURT
FOR THE EASTERN DISTRICT OF LOUISIANA
20-11509
REGINA BEROLASS HEISLER

i

!
i

CHAPTER ?

OBJECTION TO FURTHER PROCEEDINGS WITHOUT
AN EVm.ENTIAEY,HEAR?N.G AS TO,THE VALIDITY OF POM

i

Regina B. Heisler, Debtor pro se and Henry L, Klein, Creditor-4, (“Objectors*’)
formally object to further proceedings without an evidentiary hearing on the validity, vd non,
ofPOC-3, The Court has, on various occasions, announced that it will hold a hearing at a
time die court is ready, but that time is not now, Respectfully, die liquidation of assets for
the benefit of Girod LoanCo without a determination as to the validity of FOC-3 is
potentially a violation of the constitutional rights of both objectors. It will be impossible to
reconstruct die status pm ante if it eventuates that PGC-3 is invalid or unsecured. At a
motion hearing held April 21, 2021, the Court approved “...the compromise of a
controversy...” pending in Civil District Court for the Parish of Orleans by and between the
Trustee and Girod for the paltry price of $21,000.
g, „ THE RIGHT OF LITIGIOUS REDEMPTION
The agreement to let Girod have $2.1 million in the registry of the Civil District Court
means that Girod has bought, the litigation for $21,000, as to which the debtor has the right
to exercise litigious redemption pursuant to Louisiana Civil Code Article 2652,

The

demand has been made and will be raised in Civil District Court immediately. By any
measure, the “controversy” that was “compromised” without Regina Heisler is a classic case
to be decided pursuant to Louisiana Law by the Louisiana Courts and this Court may not
i<

l

<TT\j
■;/

lla

.s

have jurisdiction to order the Civil District Court to do anything with the money in its
custody8. Originally, an Interpleader was filed in Federal Court at Docket 58-2522
on
diversity grounds until Girod claimed that it had a “Louisiana member” which spoiled

i

diversity. Heisler objected because Girod is a “silo structured” entity which keeps its
ownership secret a matter that resulted in the dismissal by Judge Harold Baer in Water Street
v. BankM£mmm& an issue that has been ignored in this case. Before the Intecpleade
rwas

j

dismissed, Heisler called for the enforcement of the right of litigious redemption. After the
case was re-filed in Civil District Court, Heisler called for the right of litigious redemption.
Today, after the Memo to tire Record was memorialized, Heisler called for the enforceseat
of the right of litigious redemption, Exhibit A.
1JL__THE SALE OF 844 BARONNE
Our objection to the sale of844 Baronne is the .same as before. However, it appears
that the Court recognized tire ‘-'...over-reach...” and will not approve the proposed order.
From our perspective, it was clear that the proposed order was a request for “...an advisory
opinion... as to a release long ago confected. As with, all orders approving liquidation of
assets, Objectors urge tire Court not to grant reliefuntil evidence is adduced regarding POC-3
and the myriad of defenses that compel disallowance.
Ill- UNDISPUTED FACTS
Long ago, Objectors filed a Motion for Summary Judgment and have filed many
pleadings that the Court has apparently not considered. But it is undisputed that Girod 1tas
no evidence that any Heisler entity received consideration for the notes it holds. None, It
1

The jurisdictional issue will be MOOT if the United States Supreme Court grants GVR or if this
Court .holds an evidentiary hearing and concludes that Regina Heisler sever received a dime of the
criminal money ponzted from FNBC by the defendants in the criminal cases. It is inexplicable why the
Court has tailed to consider these travesties ofjustice.
2

i

I
i

12a

/^/S*

is also undisputed that the notes Girod purchased were the “..fruits of a poisonous iree..T
It is undisputed that Kean Miller s due diligence provided ample bases for the application of
ABA FORMAL OPINION 491 against lawyers “...turning a blind eye...” to clients intending
to engage in fraud or crime. This Court cannot ignore USA v. Gihh-< USA v. Itvan USA v.
St. Awzeh.
Unaccustomed to the vicissitudes ofbankruptcy procedure, we don’t understand how
or why the Court is delaying the vetting of the most important element in the case, POC-3.

i

The Court $ slenr orders that Creditor-4 not file pleadings that appear to be helpful to the
;

Debtor is perplexing. Your undersigned has often stated that he will never seek payment for
anything post-petition. And if POC-3 stands, POC-4 will be worthless. The Court’s hareh
view that there is a conflict fails to consider that the Debtor has the exact same goal: to
defeat Girod s claim. In balancing the equities, we respectfully submit that the pro se
debtor’s substantive rights arc being unconstitutionally-extinguished.
Walking on egg-shells is no fm The Court is asked to look at the Debtor’s side of
the case without giving Girod any further refuge from fee truth: POC-3 must be disallowed.
Very respectfully submitted,

Henry L. Klein, pro se Creditor^
844 Baronne Street
New Orleans, LA 70133
(504) 301-3027
henrykldn44@ gmai 1 .com

I

!

3

13a

4/21/2021

Gmail - Right of Litigious Redemption

Gmail

Henry Klein <h3nryktoin44@gmail.CDm>

Right of Litigious Redemption
1 message

:

Henry Klein <ti©nn/Wein44@gmaiIcom>
yy0d) Apr 2-j a 2021 at 7-2.7 pm
To: “Frederick L Bunof <F8urtoi@dsrbesJaw.com>, "WiSbur J. Babin, Jr." <babin@dcrbesiaw.com>, Eric tockridg e
<firicJockridge@keanmifer,com>, "Bergeron, Christy (USTP)’’ <Christy.Bergeron@usdoj.90v>
Bcc: Dayna Heifer <dhefster4133@gmaiS.com>, Michael Bagmens <madIyn2@bolfeouth.net>

I
i

The sate of the litigation by the Trustee to Girod for the sum of $21,000 is subject to the Right of Litigious Redemption.
Please confirm your willingness to accept $21,000 for the redemption of the litigious rights by noon tomorrow,

1
1

Henry

l

!
I
i

I
i

ffflps:/fmfflif,gixig»3,eom/maiMO?Si-a?0Z9<!2-|®avSew=pia»8Brcli=8»&pemwhia^}^id-a%3Ar-4®2e«71131938923lOaasi)ripi-!^.sys3A.f-4627OiaSl..

1/1

UNITED STATES BANKRUPTCY COURT
EASTERN DISTRICT OF LOUISIANA
IN RE:

CASE NO.: 20-11509

REGINA BERGLASS HEISLER,

CHAPTER 7
SECTION A

Debtor

Order Granting Motion To Vacate Oral Order on February 24, 2621 and Holding in
Abeyance the Objection to Claim No. 3 of Girod Loanco

!
|

The Court held a hearing on March 24, 2021, on the Motion To Vacate Oral Order on

!

February 24, 2021, filed by Creditor Henry L. Klein (the “Motion For Reconsideration”). [ECF

!

Doc. 227], and the Opposition thereto filed by Girod Loanco, LLC, [ECF Doc. 257],
Appearances were as reflected in the record.
After considering the pleadings, the arguments of counsel and parties, the record of this
case, the applicable law, and for the reasons orally assigned,
IT IS ORDERED that the Motion For Reconsideration is GRANTED, and the February
24, 2021 ruling at ECF Doc. 222 that overruled the Objection to Claim No. 3 of Girod Loanco,
(the “Objection To POC-3>\ [ECF Doc. 116], is VACATED.
IT IS FURTHER ORDERED that the Objection To POC-3 is HELD IN ABEYANCE
pending the United States Supreme Court’s disposition of the Petition for a Writ of Certiorari
filed by Henry Klein. See [ECF Doc. 237].
New Orleans, Louisiana, April 27,2021.

|
!
i
i
i

MEREDITH S. GRABILL
UNITED STATES BANKRUPTCY JUDGE

i

rr"'

i
15a

